         DATA RELIABILITY ASSESSMENT REVIEW OF
                win.COMPARE2 SOFTWARE


Report No. D-2001-127                      May 23, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
AFMIA                 Air Force Manpower Innovation Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
DITSCAP               Defense Information Technology Security Certification and
                       Accreditation Process
DUSD(I)               Deputy Under Secretary of Defense (Installations)
OMB                   Office of Management and Budget
OSD                   Office of the Secretary of Defense
                        Office of the Inspector General, DoD
Report No. D-2001-127                                                        May 23, 2001
   (Project No. D2000CH-0076.001)

                      Data Reliability Assessment Review of
                           win.COMPARE2 Software

                                    Executive Summary

Introduction. The audit was requested on June 23, 2000, by the Director, Competitive
Sourcing and Privatization, Deputy Under Secretary of Defense for Installations. The
win.COMPARE2 is a windows-based personal computer application developed by a
contractor hired by the Air Force Manpower Innovation Agency, Randolph Air Force
Base, Texas, to perform cost comparisons required by the Office of Management and
Budget Circular A-76 Revised Supplemental Handbook. The win.COMPARE2 software
was designed to replace a Disk Operating System-based version of the software called
COMPARE that was developed by the Air Force Management Engineering Agency in
1994.

Objectives. The overall objective was to perform a reliability assessment of the
win.COMPARE2 software. The specific objectives were to assess the general and
application controls, and through software testing, determine whether computations were
sufficiently reliable, accurate, and in accordance with Office of the Secretary of Defense
and Office of Management and Budget guidance. The audit also assessed the
Government’s data rights in the software.

Results. We concluded that general and application controls over the software were
adequate. We determined, through software testing, that computations and reports
generated by win.COMPARE2 were sufficiently reliable, accurate, and in accordance
with the Office of Management and Budget Circular A-76 Revised Supplemental
Handbook and the DoD A-76 Costing Manual. We also determined that the
Government’s data rights in the software were sufficient. For details of the audit results,
see the Finding section of the report.

Management Comments. We provided a draft of this report on May 9, 2001. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                           i


Introduction
     Background                             1
     Objectives                             2

Finding
     Software Reliability and Data Rights   3

Appendixes
     A. Audit Process
          Scope and Methodology             6
          Prior Coverage                    8
     B. Report Distribution                 9
Background
    The audit was requested on June 23, 2000, by the, Director, Competitive Sourcing and
    Privatization, Deputy Under Secretary of Defense for Installations (DUSD[I]). The
    win.COMPARE2 is a windows-based personal computer application developed by a
    contractor for the Air Force Manpower Innovation Agency (AFMIA), Randolph Air
    Force Base, Texas. The computer program aids in the performance of cost comparison
    studies required by the Office of Management and Budget (OMB) Circular A-76
    Revised Supplemental Handbook, “Performance of Commercial Activities,” March
    1996 (OMB A-76 Revised Supplemental Handbook). The win.COMPARE2 software
    was designed to replace the Air Force Management Engineering Agency 1994 Disk
    Operating System-based version of the Commercial Activities Cost Comparison System
    named COMPARE. The COMPARE program was initially developed exclusively for
    the Air Force, but was widely distributed outside the Air Force. The DUSD(I) mandated
    COMPARE use for all DoD A-76 cost comparisons February 29, 2000, to ensure a
    standardized approach for the process. The DUSD(I) released the win.COMPARE2,
    version 1.0, March 13, 2001. DoD components are mandated to use the computer
    program in all FY 2001 A-76 cost comparisons. In addition, the computer program is
    also mandated for use for cost comparisons where in-house cost estimates will be
    provided to the independent review officials after April 15, 2001.

    Requirements and Guidance for Performing OMB A-76 Studies. OMB Circular A-
    76, “Performance of Commercial Activities,” August 4, 1983, establishes the
    Government-wide policy and process for determining whether commercial activities
    should be contracted out or performed in-house. The OMB Circular A-76 Revised
    Supplemental Handbook, March 1996, provides detailed guidance on how and when
    cost comparison studies are to be performed, and the costs to include in the comparison
    of in-house and contractor cost proposals. The DUSD(I) released DoD 4100.XX-M,
    “A-76 Costing Manual,” March 13, 2001, as interim guidance pending issuance as a
    formal DoD publication. The A-76 Costing Manual was designed for use in conjunction
    with the win.COMPARE2 software to ensure consistency in DoD competitions. The
    DUSD(I) also has a “Share A-76!,” Internet web site that assists users preparing OMB
    A-76 comparison studies.

    Development of win.COMPARE2. The Air Force COMPARE software became
    incompatible with the modern Windows operating system. The Air Force software had
    limited upgrade and support capabilities, printing problems, limited usage to a single
    location, and single function cost comparisons. With approval and funding from the
    DUSD(I), the Air Force contracted with MEVATEC Corporation of Huntsville,
    Alabama, on March 8, 2000, to update, maintain, and provide testing and training for
    win.COMPARE2 software. MEVATEC used previously developed Cascade software
    under a contract for the Defense Finance and Accounting Service as a starting point to
    develop the win.COMPARE2 software. The new software was named win.COMPARE2
    to distinguish it from the prior version.

    The win.COMPARE2 software is easy to use and features multilocation, multifunction
    studies capabilities. The software is written in Visual Basic for Applications for
    Microsoft Access 97 and consists of almost 57,000 lines of code, 143 tables, 24 program
    modules, and 375 reports. The software is distributed as a Microsoft


                                           1
     Access MDE file (called an MDE file because of the MDE file extension),
     which does not require Microsoft Access 97 installation. The MDE file is a
     compiled version of the software, which removes all editable source code and
     compacts the database for improved performance. The win.COMPARE2
     software can be downloaded from the Share A-76! Internet web site.

Objectives
     The overall objective was to perform a reliability assessment of the
     win.COMPARE2 software. The specific objectives were to assess the general
     and application controls, and through software testing, determine whether
     computations were sufficiently reliable, accurate, and in accordance with OSD
     and OMB guidance. We also assessed the Government’s data rights in the
     software. See Appendix A for a discussion of the audit scope and methodology
     and prior coverage.




                                    2
           Software Reliability and Data Rights
           The general and application controls for win.COMPARE2, version 1.0,
           that was released March 13, 2001, were generally adequate. The
           win.COMPARE2 generated computations and reports were sufficiently
           reliable, accurate, and in accordance with the OMB A-76 Revised
           Supplemental Handbook and the DoD A-76 Costing Manual. Also, the
           Government’s data rights in the software were sufficient.

General and Application Controls
    Tests Performed. We tested general and application controls to ensure that
    win.COMPARE2 complied with the following requirements.

           • Software was year 2000 compliant in all its computations.
           • All data tables were current and conformed to the OMB A-76 Revised
               Supplemental Handbook and subsequent OMB transmittal
               memorandums or had been approved by OMB.
           •   Reports generated by win.COMPARE2 conformed to the requirements
               of DoD 5400.7-R, “DoD Freedom of Information Act Program,”
               September, 1998.
           •   Report formats and methodologies used in win.COMPARE2 complied
               with the OMB A-76 Revised Supplemental Handbook, and the DoD
               A-76 Costing Manual.
           •   Controls over the program’s source code were adequate to preclude
               user modifications to the software.
           •   Password schemes were adequate to preclude unauthorized changes to
               the data.
           •   The security accreditation process had been performed as outlined in
               DoD 5200.40, “DoD Information Technology Security Certification
               and Accreditation Process (DITSCAP),” December 30, 1997.
           •   Software documentation and user manuals were adequate.
           •   Independent software testing was completed by AFMIA.

    Our initial testing identified problems with year 2000 compliance, currency of
    data tables, and report markings. These problems were brought to the attention of
    AFMIA and the contractor, however, they were corrected before the final release
    of the software.

    The AFMIA had initiated the security accreditation required by DoD for
    win.COMPARE2, but the accreditation was still pending as of the date of this
    report. Because a designated approval authority for security accreditation has not
    been determined, users and Information System Security officers of the stand-
    alone system along with required interface download connections should ensure
    that appropriate safeguards are in place. Until the accreditation process is
    complete, users should avoid using the win.COMPARE2 software in a network
    environment.



                                         3
    Additional Testing Requirements. Because, win.COMPARE2 is intended for
    use in a stand-alone mode, we did not operationally test the program in a network
    environment and did not evaluate compliance with C-2 level (sensitive,
    noncritical) security requirements of DoD 5200.28-STD, “Trusted Computer
    System Evaluation Criteria.” Because, OMB A-76 studies are procurement
    sensitive, C-2 level security would be required if win.COMPARE2 data was
    shared over a network. We also did not test for compliance with section 508,
    “Electronic and Information Technology,” of the Rehabilitation Act of 1973
    (Public Law 93-112) (amended by Workforce Investment Act of 1998
    (Public Law 105-220), section 408(b)). Section 508 requires Federal agencies to
    ensure comparable access to disabled federal employees to the agency’s electronic
    and information technology, to include software.

Data Testing
    Data Testing Approach. Accuracy in win.COMPARE2 software is critical to a
    fair evaluation of Government and contractor proposals. We tested computations
    for each of the 18 lines of cost information identified in chapters 2 through 4 of
    the OMB A-76 Revised Supplemental Handbook. We also tested computations
    for the 14 lines of cost information used for Streamlined A-76 Cost Comparisons
    in chapter 5. Our tests compared calculations from win.COMPARE2 with
    expected results that we had either manually calculated or derived from
    spreadsheets. We attempted to test each line using each of the options available
    to the user. Additionally, a computer software engineer evaluated the software
    code for logic errors and computational precision.

    Other Testing by AFMIA and the Contractor. Our testing was independent of
    software testing performed by AFMIA. The AFMIA testing identified a number
    of problems in earlier versions of the software that were subsequently fixed. The
    AFMIA testing also included a comparison of results between the old COMPARE
    software and win.COMPARE2 when such comparisons were possible. This
    testing was very beneficial and improved the quality of the final product.
    Additionally, MEVATEC Corporation conducted its own testing, as part of its
    quality control program, which was most helpful in fixing problems that were
    identified.

    Results of Data Testing. Our testing identified a number of errors and software
    glitches that were immediately brought to the attention of the contracting officer
    representative. We recommended revised algorithms for computing inflation for
    nonpay items, and conformance with OSD and OMB guidance. We
    recommended programming approaches that resulted in more precise cost
    computations. We identified errors with calculations involving leap years and all
    of the problems were subsequently fixed. We concluded that computations and
    reports generated by win.COMPARE2 were sufficiently reliable, accurate, and in
    accordance with the OMB A-76 Revised Supplemental Handbook and the DoD
    A-76 Costing Manual.

    Testing and Study Limitations. We could not test all possible scenarios,
    therefore, our review cannot assure that win.COMPARE2 is error-free.
    Additionally, a successful cost comparison study depends on the qualifications

                                         4
     and skills of the cost analyst supplying the data to win.COMPARE2. The analyst
     must fully understand the OSD and OMB requirements for conducting an A-76
     cost comparison, and the cost implications of each win.COMPARE2 data entry.
     Likewise, the study quality is also dependent on the diligence of the independent
     review official.

Data Rights in the Software
     The Director, Competitive Sourcing and Privatization, DUSD(I), also requested
     that we review the Air Force’s contract for the development of win.COMPARE2
     to determine whether the Government had adequately protected its data rights in
     the software.

     The Defense Federal Acquisition Regulation Supplement (DFARS) 227.400
     directs that DoD use the guidance in DFARS Subparts 227.71 and 227.72 rather
     than the Federal Acquisition Regulation subpart 27.4 (rights in data and software)
     because of certain provisions in 10 U.S.C. 2320, “Rights in technical data,” and
     10 U.S.C. 2321, “Validation of proprietary data restrictions,” which apply
     particularly to DoD. The DFARS subparts 227.71 and 227.72, prescribe the use
     of standard contract provisions and clauses for protection of technical data and
     computer software. Some of those clauses are designed to protect the rights of
     contractors that have developed items, components, or processes at private
     expense. Other clauses require the contractor to identify any technical data or
     computer software that it intends to deliver with other than unlimited rights, under
     any Government contract. These disclosures ensure contracting officers do not
     obtain lesser rights than those previously provided to the government.

     Because the contract for win.COMPARE2 was a General Services Administration
     contract, the standard provisions and clauses prescribed by the DFARS had not
     been used. Nevertheless, MEVATEC contract clause C.3.7, “Code Ownership,”
     provides that the win.COMPARE2 program shall become the property of the
     Government to include title and all rights. Additionally, the clause requires all
     source code, documentation to support the code, engineering notes, training
     materials, and any other supporting data shall be surrendered to the contracting
     officer representative. We concluded that this clause adequately protected the
     Government’s ownership rights.




                                          5
Appendix A. Audit Process

Scope and Methodology
    Work Performed. The audit used General Accounting Office, GAO/OP-8.1.3,
    “Assessing the Reliability of Computer-Processed Data,” April 1991, as a
    guideline for performing a systems review of the software. A systems review
    assesses and tests all controls in a computer system for the full range of its
    application functions and products to include:

       • an examination of a computer system’s general and application controls,
       • tests whether those controls are being complied with, and
       • tests of data produced by the system.

    Accordingly, we reviewed the general and application controls as well as data
    testing to make our assessment. General controls include organization and
    management controls, security controls, and system software and hardware
    controls. Application controls are methods and procedures designed for each
    application to ensure the authority of data origination, the accuracy of data input,
    integrity of processing, and verification and distribution of output. Data testing is
    required to determine whether particular data produced by a computer system are
    valid and reliable.

    We participated in beta testing of the win.COMPARE2 software at Randolph Air
    Force Base in San Antonio, Texas, and reviewed the software at MEVATEC
    headquarters in Huntsville, Alabama. We analyzed the general controls of the
    win.COMPARE2 program including compliance with the Defense Information
    Technology Security Certification and Accreditation Process (DITSCAP) security
    requirements; compliance with OMB A-76 Revised Supplemental Handbook and
    related Transmittal Memorandums; and compliance with “For Official Use Only,”
    marking requirements. Our analysis of application controls included testing of
    edit checks, reliability of data, password controls, and accuracy of computations.
    We performed data testing on data outputs from win.COMPARE2. We met with
    the MEVATEC director and program analyst to discuss issues found during the
    testing. We met with a Personnel Management Specialist from the DoD
    Nonappropriated Fund Personnel Policy Office of the Defense Civilian Personnel
    Management Service to discuss costing policies for nonappropriated personnel.

    Limitations to Scope. We did not review the management control program
    because the scope of the audit was limited to certifying the software and
    determining whether the Government had adequately protected its data rights to
    the software.




                                          6
DoD-Wide Corporate-Level Government Performance and Results Act
(GPRA) Coverage. In response to the GPRA, the Secretary of Defense annually
establishes DoD-wide corporate level goals, subordinate performance goals, and
performance measures. This report pertains to achievement of the following
objectives and goals, subordinate performance goal, and performance measure.
     • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
         future by pursuing a focused modernization effort that maintains U.S.
         qualitative superiority in key warfighting capabilities. Transform the
         force by exploiting the Revolution in Military Affairs, and reengineer
         the Department to achieve a 21st century infrastructure. (01-DoD-02)

     • FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
         infrastructure by redesigning the Department’s support structure and
         pursuing business practice reforms. (01-DoD-2.3)

     • FY 2001 Performance Measure 2.3.3: Public/Private Sector
         Competitions.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the Information Management and Technology high-risk area.

Use of Computer-Processed Data. The audit objective was to assess the
reliability of data and the general and application controls of win.COMPARE2.
As a result of the testing we found the data to be reliable and the controls to be
adequate.

Use of Technical Assistance. A software computer engineer from the Technical
Assessment Division, Audit Followup and Technical Support Directorate, Office
of the Assistant Inspector General for Auditing, DoD, provided assistance in the
review of the program and system characteristics for accuracy, information
assurance and compliance. This review included inspecting operating system
features, source code, algorithms, data elements, computer security issues and
ensuring program compliance with DoD Automated Information System Policy.
The audit performed extensive testing of the win.COMPARE2 software, in
accordance with General Accounting Office guidelines and concluded that
win.COMPARE2 was sufficiently reliable to be used for OMB A-76 cost
comparison studies.

Audit Type, Dates, and Standards. We performed this program audit from July
2000 through March 2001 according to auditing standards issued by the
Comptroller General of the United States, as implemented by the Inspector
General, DoD.

Contacts During the Audit. We visited and contracted individuals and
organizations within DoD, the OMB, and MEVATEC Corporation located in
Huntsville, Alabama. Further details are available upon request.



                                      7
Prior Coverage
       During the last 5 years, the Inspector General, DoD, issued one report pertaining
       to development of another OMB A-76 costing model, which was subsequently
       terminated. Army Audit Agency issued two reports on the previous COMPARE
       software. The first audit, Report No. WR95-753, concluded that the COMPARE
       software would meet the Army’s needs. The second audit reviewed the effect of
       changes made to the COMPARE software by the Air Force.


Inspector General, DoD
       Inspector General, DoD, Report No. 99-208, “Defense Finance and Accounting
       Service Commercial Activities Program,” July 8, 1999.


Army
       Army Audit Agency Report No. AA97-092, “USAF Commercial Activities Cost
       Comparison System,” January 6, 1997.

       Army Audit Agency Report No. WR95-753, “Review of US Air Force Cost
       Comparison System,” December 14, 1994.




                                           8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations)
     Director, Competitive Sourcing and Privatization
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Inspector General, Defense Intelligence Agency
Director, Defense Logistics Agency
Inspector General, National Security Agency




                                          9
Non-Defense Federal Organization
  Office of Management and Budget
    Commercial Activities and Privatization
    National Security Division, Special Projects Branch

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee of Government Efficiency, Financial Management and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
Government Reform




                                          10
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

Paul J. Granetto
Garold E. Stephenson
Kent E. Shaw
Lawrence N. Heller
Tracy L. Simmons
Andrew D. Greene
Stephanie N. Lay
Peter C. Johnson
Frank C. Sonsini
